BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

A. KERSHNER, J.D.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Petition for a Writ of
Certiorari in Native Wholesale Supply Company v.
People of the State of California ex rel. Xavier Becerra,
Attorney General, were sent via Three Day Service to
the U.S. Supreme Court, and 1 copy was sent via
Three Day Service and e-mail to the following parties
listed below, this 3rd day of February, 2020:
Nora Flum
DEPUTY ATTORNEY GENERAL
Department of Justice
Office of the Attorney General
Tobacco Litigation and Enforcement
P.O. Box 70550
Oakland, CA 94612-0550
(510) 879-1986
Nora. Fl um@doj.ca. gov
Counsel for Respondent
Randolph H. Barnhouse
Counsel of Record
Barnhouse Keegan Soliman & West LLP
7 424 4th Street NW
Los Ranchos de Albuquerque, NM 87107
dbarnhouse@indiancountrylaw.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 3, 2020.

Julie A. Kershner
Becker Gallagher Lega
li hing~ Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

.

FZ,6 J.,,~ ~ I

~OoQ

don, f(]. ( } _ , ~

Notary Public

'

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

